                        Closeout of M90110045

                        to OIG-on November 20, 1990 by 1-
                                program. A proposal reviewer,
      of the University                                     -
do research using a reagent provided by the       plainant.   The
proposal acknowledged that the complainant had prepared the
reagent.   However, the complainant was planning to do the
particular experiment that was being proposed, had not given
permission to the proposer to use the reagent for this
experiment, and would have liked to be listed as a collaborator
in the research and a co-author of future papers.
OIG learned that the reagent had been given to the proposer four
years before. Discussions with NSF program officers in relevant
fields confirmed that it is accepted that a laboratory may
provide a reagent to another laboratory with restrictive
conditions as to how it is to be used.         However, such an
informal agreement would not be expected to remain in effect for
four years. Moreover, the complainant admitted that the proposer
could have synthesized the reagent again in three to six months.
Accordingly, OIG finds that there is nothing in this case that
meets the definition of research misconduct. The complainant was
not in fact alleging that there was misconduct.    Therefore the
case should be closed.




March 7, 1991

                                            O'
Copy: Inspector General                      3 rinl:.qI
      Assistant Inspector General for Oversight
